■<*

No.

IN THE SUPREME COURT OF THE UNITED STATES

LUIS GUILLEN, PETITIONER
vs.
RUSSELL WASHBURN, WARDEN, RESPONDENT

ON PETITION FOR WRIT OF CERTIORARI TO
THE UNITED STATES COURT OF APPEALS IN THE SIXTH CIRCUIT

PROOF OF SERVICE
I, Luis Guillen, # 500168, Petitioner, do declare that on this date, as required by Supreme Court
Rule 29,1 have served the enclosed MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
and PETITION FOR WRIT OF CERTIORATI on each party to the above proceeding or that party's
counsel, and on every other person required to be served, by depositing an envelope containing the
above documents in the United States mail properly addressed to each of them and with first-class
postage prepaid, or by delivery to a third-party commercial carrier for delivery within 3 calendar days.
The names and addresses of those served are as follows:
Supreme Court of the United States
1 First Street NE. US Supreme Court Bldg.
Washington, DC 20543

And

TN Atty General
P.O. Box 20207
Nashville, TN 37209-0207

I declare under penalty of perjury that the foregoing is true and correct.
Executed on
day of April, 2020.

Luis Guillerjy# 50*0168,pro se Petitioner
TTCC
140 Macon Way
Hartsville, TN 37074

1

t

r

r

\

1

:

i

\

1

7'-'

f

i
r

"> S'*

(

: r

